<html>
<title> - LEGISLATIVE FIELD HEARING ON S. 260, ``THE PARTNERS FOR FISH AND WILDLIDE ACT''</title>
<body><pre>[Senate Hearing 109-788]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-788
 
                 LEGISLATIVE FIELD HEARING ON S. 260, 
               ``THE PARTNERS FOR FISH AND WILDLIDE ACT''

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                       APRIL 22, 2005--TULSA, OK

                               __________

  Printed for the use of the Committee on Environment and Public Works


      Available via the World Wide Web: http://www.access.gpo.gov/
                            congress.senate

                               __________




                    U.S. GOVERNMENT PRINTING OFFICE

32-208 PDF                  WASHINGTON : 2007
------------------------------------------------------------------
For sale by Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800;
DC area (202) 512-1800 Fax:  (202) 512-2250. Mail:  Stop SSOP, 
Washington, DC 20402-0001



               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                       ONE HUNDRED NINTH CONGRESS
                             FIRST SESSION

                  JAMES M. INHOFE, Oklahoma, Chairman
JOHN W. WARNER, Virginia             JAMES M. JEFFORDS, Vermont
CHRISTOPHER S. BOND, Missouri        MAX BAUCUS, Montana
GEORGE V. VOINOVICH, Ohio            JOSEPH I. LIEBERMAN, Connecticut
LINCOLN CHAFEE, Rhode Island         BARBARA BOXER, California
LISA MURKOWSKI, Alaska               THOMAS R. CARPER, Delaware
JOHN THUNE, South Dakota             HILLARY RODHAM CLINTON, New York
JIM DeMINT, South Carolina           FRANK R. LAUTENBERG, New Jersey
JOHNNY ISAKSON, Georgia              BARACK OBAMA, Illinois
DAVID VITTER, Louisiana
                Andrew Wheeler, Majority Staff Director
                 Ken Connolly, Minority Staff Director

                                  (ii)


                            C O N T E N T S

                              ----------                              
                                                                   Page

                       APRIL 22, 2005--TULSA, OK
                           OPENING STATEMENTS

Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma, 
  prepared statement.............................................     1

                               WITNESSES

Hall, Dale, Regional Director, U.S. Fish and Wildlife Service 
  (Region 2).....................................................     5
    Prepared statement...........................................    20
Bidwell, Terry, partners program participant, Wildlife Biologist, 
  and Professor, Oklahoma State University.......................    10
    Prepared statement...........................................    22
Chervanka, Verlene, partners program participant, Sayre, OK......    14
    Prepared statement...........................................    24
McKnight, Hal, partners program participant, Duncan, OK..........    11
    Prepared statement...........................................    23
Neal, Jeff, partners program participant, Indianola, OK..........     9
    Prepared statement...........................................    22
Straughn, Debbie, principle, Deer Creek Elementary School, Emond, 
  OK.............................................................    13
    Prepared statement...........................................    24

                          ADDITIONAL MATERIAL

Statement, McDaniels, Andy, Oklahoma Wildlife Federation.........    25


                 LEGISLATIVE FIELD HEARING ON S. 260, 
               ``THE PARTNERS FOR FISH AND WILDLIFE ACT''

                              ----------                              


                         FRIDAY, APRIL 22, 2005

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                         Tulsa, OK.
    The committee met, pursuant to notice, at 1 p.m. in the 
Tulsa Conference Center, Oklahoma State University, Tulsa, OK, 
Hon. James M. Inhofe (chairman of the committee) presiding.
    Present: Senator Inhofe.

 OPENING STATEMENT OF HON. JAMES M. INHOFE, U.S. SENATOR FROM 
                     THE STATE OF OKLAHOMA

    Senator Inhofe. Our hearing will come to order and let me 
explain to you a little bit about what is going on here. When 
you have a piece of legislation that is major in any way, you 
always have hearings, and normally those hearings take place in 
Washington, DC. Now, we decided that--I'm the chairman of a 
committee called the Environment and Public Works Committee, so 
I can have it anywhere I want, so we're going to have it in 
Oklahoma and we'll talk about this program in a minute, but let 
me just before we do that thank you for coming.
    This is a very significant thing, this is something that 
people like. I mean, you know, when I became chairman of the 
Environment and Public Works Committee back in--well, it's 2 
years ago now, it's the largest committee in Washington. Its 
environment side is all the 17 bureaucracies including the EPA, 
Corps of Engineers and all that, and then the public works side 
is all the public works, bridges, buildings and roads and 
highways and all of that, so it is very significant and one of 
the first things that I said when we started off is what we're 
going to do is three things, No. 1, in terms of the 17 
bureaucracies, we're going to have sound science based on 
decisions that are sound science, not this garage science that 
a lot of people use; No. 2, we're going to have cost-benefit 
analysis so people know how much all this fun is costing them; 
and, No. 3, an attitudinal change. There are some--some 
bureaucracies and I would say the IRS is a good example, the 
EPA has historically been a good example of people in getting 
them instead of ruling to have an attitude of serving and 
that's what this is all about today.
    Before I start, I want to make an announcement that will 
be--should be exciting to everyone here, even though it has 
nothing to do with our subject today, I've been trying to get 
our highway reauthorization bill through since a year ago this 
week. Last year we got it passed out of the committee, my 
committee to the senate, from the senate floor to conference 
and conference, it died there at that time, that's back when 
Tom Daschle was there and he was obstructing things. Well, he's 
not there anymore, so we're going to get this bill out and just 
this morning I had very good news, we went ahead and filed--
it's kind of complicated, it's a technical thing, procedural 
matter, parliamentary matter, it is a motion to preclude 
someone from filibustering the highway bill so that when I go 
there on Monday, if you turn on C-SPAN starting at 2 o'clock in 
the afternoon, you're going to see me talking for 6 hours about 
the highways and we're going to try to get it out before the 
end of the week, that's a deadline, so we're looking forward to 
trying to get that done. There's nothing Oklahoma needs more 
right now. We are tied with Missouri being dead last in the 
condition of our bridges and I don't think there's anyone here 
who traveled in whether you came in from Sayre or southwest 
Oklahoma or southeast Oklahoma who didn't realize as they were 
traveling along the roads that we have a great need.
    Now, I want to welcome our witnesses representing each 
corner of the State and thank them for their testimony. I would 
also like to thank Mr. Jontie Aldrich, the director of the 
Partners for Fish and Wildlife Program here in Tulsa, for his 
help in coordinating today's hearing. Today's field hearing 
concerns legislation that I've introduced. It's S. 260, the 
Partner for Fish and Wildlife Act, that I've sponsored along 
with Senator Jeffords. You might know Senator Jeffords is the 
ranking Democrat on the committee that I chair. He just 
announced his retirement yesterday as a matter of fact, which I 
was--I won't tell you. Anyway, also, Senator Cochran who is 
chairman of the Senate Appropriations Committee, you can't ask 
for a better co-sponsor of legislation than the Chairman of the 
Senate Appropriations Committee.
    Today is the 35th anniversary of Earth Day which has become 
in many parts of the country a day for extremist 
environmentalist organizations to tell us all what's wrong with 
the world. However, the truth is much different. This--I'm 
going to tell you something that people are not aware of, over 
the last 35 years our Nation has made great progress in 
providing for a better environment, improving public health. 
Between 1970 and 2003, listen to this, the gross domestic 
product has increased 176 percent, the vehicle miles traveled 
increased 155 percent, energy consumption increased 45 percent 
and the United States population grew by 39 percent, and during 
this same period of time, the emissions, the air emissions from 
the six air pollutants dropped by 51 percent. Now, that's since 
the Clean Air Act and then the Clean Air amendments of 1990. 
It's a huge success. But with the media who doesn't want you to 
believe that anything good is going on in the environment and 
for the far-left environmentalist groups who hate hearing 
nothing about the environment, they're money making machines to 
try to elect liberals to Congress, you don't hear these good 
news, but being Earth Day, I wanted to share that with you.
    On August 26, 2004, President Bush signed Executive Order 
13352 to insure that Federal agencies pursue new cooperative 
conservation actions designed to involve private landowners 
rather than simply make mandates which private landowners must 
fulfill. What a refreshing change this is, to see people as 
I've been talking to you as you arrived today, people who are 
enjoying this, people who want to expand their programs and 
we'll hear from them today. As the Chairman of the Senate 
Environment and Public Works Committee, a new approach to 
conservation is especially important to me. All conservation 
programs should create positive incentives to protect species 
and above all should hold the rights of private landowners as 
sacred. A positive step towards those aims is authorization of 
the Partners for Fish and Wildlife Program which has already 
proven to be an effective habitat and conservation program that 
leverages federal funds and utilizes voluntarily private 
landowner participation. Since 1987, the Partners Program has 
been a successful voluntary partnership program that helps 
private landowners restore habitat. Through over 35,000 
agreements nationwide with private landowners, the Partners 
Program has accomplished a restoration of over 700,000 acres in 
wetlands, one and a half million acres of prairie and native 
grasslands and nearly 6,000 miles of riparian around in-stream 
habitat. Partners Program agreements are funded through 
contributions from the U.S. Fish and Wildlife and in-kind 
contributions from participating private landowners, which is 
actually three-to-one private landowners. Since 1990, the U.S. 
Fish and Wildlife Service has provided--I was talking about 
Oklahoma now--$3.5 million of private landowners which have 
contributed, private landowners, $12.5 million so $3.5 million 
and $12.5 million to restore 124,000 acres of habitat in 
Oklahoma through 700 individual voluntary agreements with 
private landowners. U.S. Fish and Wildlife Service District 
Office in Tulsa currently reports that at least another 100 
private landowners are waiting to enter into Partners projects 
as soon as funds become available. Currently, the Partners 
Program operates only as a line item annual appropriations bill 
and is subject to funding redistribution to other programs. Let 
me tell you what that's all about. You have a good program, 
it's worked for years, everybody wants it. The only ones 
against it are the far-left environmentalists who think if it's 
not something completely controlled by Washington, it can't be 
good; and, consequently, it's something that is appropriated 
each year. Now, through this process you might get an 
appropriation that looks like it would do a good job for the 
country in one year, then all of a sudden because there are 
other needs, they start taking out of the appropriations and 
redistributing that money in other programs. This legislation 
provides specific authorization with funding similar to what I 
have just described the authorization program for highways and 
specific authorization with funding to allow the program to 
operate and grow in the future. To date, the Partners Program 
has received little attention. My bill will build on the 
successful program to provide additional funding and added 
stability. Prior to hearing testimony from our first panel, I'd 
like to show a short part of an ESPN program that was sponsored 
by the National Rifle Association supporting the Partners 
Program and highlighting participation landowners in Oklahoma. 
The landowners featured in this video, Jeff Neal and Verlene 
Chervanka, I'll get that a little more naturally in a minute, 
they're here, so we have a couple of movie stars that are here 
today. I want you to look for them up here, Verlene, and see 
what you look like on the film, so we'll watch that first and 
then I'll introduce our panel. By the way, we do have quite a 
bit of the staff that's here from Washington from my committee 
that's come down to make this official and the person who is 
not the technician is Ryan Jackson. He's trying to operate the 
TV right now. I'll give you 30 more minutes. By the way, Ryan 
Jackson is one of the main people who is making a successful 
operation out of cleaning up Tar Creek, you know, something 
they said couldn't be done and we're doing it now and Ryan is 
probably the one that has more to do with that than anybody 
else.
    [Whereupon, the video was shown.]
    Senator Inhofe.  That was good. That's good. Let's give our 
stars a hand. OK. Good. All right. Well, Dale, thank you for 
being here. I'll submit for the record Andy McDaniels' 
statement be made a part of the record at this time without 
objection. Dale, thank you for being here and we'll just 
recognize you at this time for an opening statement. Before you 
do, let me mention, see, we have Nathan and Sage, and Ryan 
you've already met, who are here from the committee from 
Washington. We have quite a few and where's Collison? Collison, 
he had a hard time sitting still waiting that long before they 
shot that turkey. Lou Halsey, Josh Kivett, Danny Finnerty. Who 
else do you have here? I guess that's it. All right, Dale, 
you're on.
    [The prepared statement of Senator Inhofe follows:]
       Statement of Hon. James M. Inhofe, U.S. Senator from the 
                           State of Oklahoma
    Good afternoon. I want to welcome our witnesses representing each 
corner of the State and thank them for their testimony. I would also 
like to thank Mr. Jontie Aldrich, Director of the Partners for Fish and 
Wildlife Program here in Tulsa, for his help in coordinating today's 
hearing.
    Today's field hearing concerns my legislation S. 260, the Partners 
for Fish and Wildlife Act that I have sponsored along with Senator 
Jeffords, the Ranking Member on the Senate Environment and Public Works 
Committee and Senator Cochran, Chairman of the Senate Appropriations 
Committee.
    Today is the 35th Anniversary of Earth Day which has become in many 
parts of the country a day for extremist environmental organizations to 
tell us what is all wrong with the world. However, the truth is much 
different. For instance, over the last 30 years, our Nation has made 
great progress in providing for a better environment and improving 
public health. Between 1970 and 2003, gross domestic product increased 
176 percent, vehicle miles traveled increased 155 percent, energy 
consumption increased 45 percent, and U.S. population grew by 39 
percent. During the same time period, total emissions of the six 
principal air pollutants dropped by 51 percent. So this hearing is 
especially appropriate to be held today because it concerns a program 
demonstrating actual environmental results in full voluntary 
cooperation with private landowners.
    On August 26, 2004, President Bush signed Executive Order 13352 to 
ensure that federal agencies pursue new cooperative conservation 
actions designed to involve private landowners rather than simply 
making mandates which private landowners must fulfill.
    As Chairman of the Senate Environment and Public Works Committee, a 
new approach to conservation is especially important to me. All 
conservation programs should create positive incentives to protect 
species and, above all, should hold the rights of private landowners 
sacred.
    A positive step toward those aims is authorization of the Partners 
for Fish and Wildlife Program which has already proven to be an 
effective habitat conservation program that leverages federal funds and 
utilizes voluntary private landowner participation. Since 1987, the 
Partners Program has been a successful voluntary partnership program 
that helps private landowners restore habitat. Through over 35,000 
agreements nation-wide with private landowners, the Partners Program 
has accomplished the restoration of over 700,000 acres of wetlands, 1.5 
million acres of prairie and native grasslands, and nearly 6,000 miles 
of riparian and in-stream habitat. Partners Program agreements are 
funded through contributions from the U.S. Fish and Wildlife Service 
and cash and in-kind contributions from participating private 
landowners.
    Since 1990, the U.S. Fish and Wildlife Service has provided 
$3,511,121 and private landowners have contributed $12,638,272 to 
restore 124,285 acres of habitat in Oklahoma through 700 individual 
voluntary agreements with private landowners. The U.S. Fish and 
Wildlife Service District Office in Tulsa currently reports that at 
least another 100 private landowners are waiting to enter into 
Partner's projects as soon as funds become available.
    Currently, the Partners Program operates only as a line item in 
annual appropriation bills and is subject to funding redistribution to 
other programs. My legislation provides specific authorization with 
funding to allow the program to operate and grow in the future. To 
date, the Partners Program has received little attention. My bill will 
build on this successful program to provide additional funding and 
added stability.
    Prior to hearing testimony from our first panel, I would like to 
show a short part of an ESPN program sponsored by the National Rifle 
Association supporting the Partners Program and highlighting 
participating landowners in Oklahoma. The landowners featured in the 
video, Mr. Jeff Neal and Mr. Verlene Chervanka, are here to testify 
this afternoon.
    I will also submit for the record a statement from Mr. Andy 
McDaniels with the Oklahoma Wildlife Federation, and I would like to 
thank Mr. McDaniels for his help in bringing attention to today's 
hearing.
    I will now call up our first panel from the U.S. Fish and Wildlife 
Service, Regional Director Dale Hall.

   STATEMENT OF DALE HALL, REGIONAL DIRECTOR, U.S. FISH AND 
                   WILDLIFE SERVICE, REGION 2

    Mr. Hall. Thanks, Senator. It's truly an honor for me to be 
here today to testify on S. 260 and the great program that has 
been displayed here already this afternoon. I'd like to request 
that my written comments be submitted for the record.
    Senator Inhofe.  Yes. You can take longer than the normal 
time. Why don't we start off by saying what states are in this 
region.
    Mr. Hall. Yes, sir. I am the Regional Director for the U.S. 
Fish and Wildlife Service and our regional office is in 
Albuquerque, New Mexico. Our region is Arizona, New Mexico, 
Texas and Oklahoma. As the Regional Director for the Fish and 
Wildlife Service, one of the privileges I have is to be part of 
the Partners for Fish and Wildlife Program. The service firmly 
supports the philosophy that by working together, the federal 
government and private landowners can achieve tremendous 
success in habitat conservation. In August 2004, President Bush 
signed an Executive order on cooperative conservation asking 
all agencies to strengthen their efforts to work together with 
tribes, States, local governments and landowners to achieve 
conservation goals. The Partners for Fish and Wildlife Program 
exemplifies the Service's dedication to cooperative 
conservation and our commitment to work with private landowners 
to further the country's conservation goals while honoring 
individual landowner rights. That's very important. Many 
Partners Program projects achieve conservation goals alongside 
ongoing productive economic activities and that is a 
substantial goal that we receive. The vast majority of this 
habitat in the United States for fish and wildlife resources is 
in private hands. Estimates have been as high as 70 percent of 
all fish and wildlife habitat in the United States is owned by 
private landowners. If we are to leave a real legacy of 
conservation for future generations, we have to find ways to 
honor those landowner stewards that have been out there on the 
land, want to improve the land and want to leave it better than 
they found it. To help achieve these goals, in 1987 the Service 
established the Partners for Fish and Wildlife Program, 
otherwise known as the Partners Program, under the broad 
authority of the Fish and Wildlife Coordination Act and the 
Fish and Wildlife Act. The Partners Program is a voluntary 
habitat restoration program that recognizes the long-standing 
and strong natural resource stewardship ethic present in many 
private landowners. As an example, in Oklahoma, the Partners 
Program has experienced tremendous success. Since 1990, we have 
initiated 684 projects on over 128,000 acres of private land. 
This includes 14,400 wetland acres, 82,600 grassland acres, 
1,300 woodland and shrubland acres, 25,100 acres of other 
habitat and over 230 miles of riparian stream. Furthermore, the 
Partners Program funds have created over 100 outdoor education 
classrooms on school campuses that will provide future 
generations of Americans with hands-on experience working with 
the land and wildlife, and I understand you'll be hearing from 
both landowners and from the school system today and I just 
want to compliment the people ahead of time for the great work 
they're doing. S. 260, the Partners for Fish and Wildlife Act, 
would codify the Partners for Fish and Wildlife Program. 
Because of the tremendous success of the program and working 
with private landowners to conduct cost effective habitat 
projects for the benefit of fish and wildlife resources in the 
United States, I am pleased to announce and testify on behalf 
of the Administration that the Administration supports this 
legislation. Senator, if you have questions.
    Senator Inhofe.  That was just as of today.
    Mr. Hall. That is as of today. We got it cleared yesterday.
    Senator Inhofe.  It's very unusual, Dale, I'm glad you 
mentioned that, because the Administration has a policy that 
they don't--they don't endorse any legislation until it is 
actually in a--passed out of a committee, so this is an 
exception and it should tell you how strong they feel about it. 
Now, it's been handled the way that I described just as a line 
item, but this is authorization. Why don't you share with us 
the advantages to having this as an authorized program.
    Mr. Hall. Well, you mentioned some of those advantages in 
your opening comments, but it's really important to 
differentiate between a program that's established through 
budget appropriations and a program that's established through 
legislative mandate. As you pointed out under the earlier, this 
program has been funded for since 1987 through the normal 
appropriations process, but that is always open to be cut, to 
be eliminated even because there's no, what we would call, 
organic legislation that institutionalizes this program. Your 
bill does that for us and gives us the standing in this program 
to be able to push back even in budget cut times to make sure 
this program survives and keeps going.
    Senator Inhofe.  Don't you think also there is--that the 
fact that you can plan for the future, you can look down the 
road and say, This is what we'll be able to do in the future, 
but you can't do that when it's a year-to-year uncertainty. The 
S. 260, which is otherwise known as the Marriage Opportunity 
Relief and Empowerment Act of 2005, provides a variety of tax 
releases--relief includes Section 308 which provides for 
specific tax exclusions or deductions for payments made under 
the Partners for Fish and Wildlife Program. I would like to get 
you on record as to whether you believe that this legislation 
should include that deductibility of the federal share as it 
does in the legislation.
    Mr. Hall. The security for the private landowners that this 
is not a punishment is absolutely essential. When a private 
landowner steps up and expends their funds, not only are they 
offering up their lands, which is a gift to the American public 
for the natural resources, but they're also spending their own 
money and we believe that it would be a sin to have them have 
to pay taxes on the moneys that come to them to help do these 
benefits that really reach out to the entire American public. 
Waterfowl, natural resource, air, water, all of these benefits 
come from habitat restoration. I am not enough of a scholar to 
understand whether or not it needs to be in two places because 
I don't know the different committees that might have to be 
discussed with and the different sorts of debates that might 
have to go there. I would simply say that it's critically 
important that the private landowners that receive funding to 
help us with habitat through this, that it is extremely 
important that they not have to pay taxes on those moneys that 
they receive from us.
    Senator Inhofe.  I certainly agree with that. You have this 
in several states within your jurisdiction. Do you have any 
anything specific you can say about what you have done in terms 
of--to help either threatened or endangered species?
    Mr. Hall. Oh, yes, sir. If I may give a little background, 
I have worked in the endangered species program as well for 
well over 15 years and I have seen leading with regulation and 
how it fails. The American public wants to have good natural 
resources. They want to have species. They want to have 
diversity on the property. I have never met a landowner that 
wouldn't like to have endangered species on their property. 
They're proud to be the land stewards. But we cannot expect 
them to work with us and help us recover those species if the 
banner that we're working under is no good deed goes 
unpunished, so we have to find ways to substitute regulation 
with partnership and voluntary actions in cases--and actually a 
good example is the lesser prairie chicken. We have petitioned 
to list the lesser prairie chicken and we have, frankly, 
resisted that because we've had the Partners Program working 
with private landowners restoring habitat for the lesser 
prairie chicken and if you look at what the Endangered Species 
Act really asks us to do is to identify threats to a species 
and then try to figure out ways to address those threats so 
that it's not endangered extinction or won't become. The 
Partners Program allows us to get out in front of that, start 
working to create the habitat and habitat is the primary factor 
that causes a lot of species to be listed. We get out and start 
restoring the habitat that you've seen in the film and through 
as you pointed over 2 million acres nationally and, you know, 
several hundred thousand acres in our region alone over the 
past years, it gives us a chance to recover a species without 
having to have regulation. When you do that, partners are 
willing to come because the threat of no good deed goes 
unpunished is not there, so this is really important and I 
believe that what we're seeing now in the debates over the 
Endangered Species Act is that the Partners Program will 
eventually become the delivery mechanism for recovering 
species. The Act passes its goal to delist, to recover the 
conservation of the species, regulation does no more than hold 
status quo. There is no law in the United States that allows us 
or any other federal agency to require anyone's habitat be 
improved. Regulation can only hold current status. The Partners 
Program really moves it forward, increases the values and 
brings back real recovery objectives.
    Senator Inhofe.  That's good, Dale. You know, I know it's a 
little irregular to do this, but you've come further than 
anyone else. Well, that's not true, we have some from 
Washington to be here today, and I would like to ask if there 
are any--confine it to landowner, do any of the landowners here 
have any questions that they'd like to ask, take advantage of 
the fact that he is here in Oklahoma and you have access to 
him, any questions you want to ask him?
    Mr. Chervanka.  Well, I'd like to say the Partners Wildlife 
Program, I've worked with government agencies, you know, like 
putting land in CRP and different programs with USDA, but 
there's always a question mark in the back of your mind when 
you work with them, they've got too much control over you 
really, this might be my thinking, but with the Partners 
Program, when I started working with the Partners Program, it's 
all different. They're just like another landowner. We're all 
trying to get together and do the same thing. That feeling is 
just not there, just kind of broke down the barriers. I get to 
work with all of them and that's how I feel about your program.
    Mr. Hall. We can't say enough about how we appreciate you 
being willing to make these contributions. I know the 
landowners see it that they're doing something they enjoy and 
they're getting some good hunting values and, you know, I love 
to hunt, too, but what's often left out is that Verlene is 
making contributions to all the people in the United States 
when he does that. I don't think that's recognized as often as 
it should be.
    Senator Inhofe.  Verlene, you're trying to be very, very 
generous in the way you said that. I can remember when about 3 
years ago we had a Regulatory Agency was trying to declare 
propane as a dangerous, hazardous material and I noticed--I was 
chairing the committee hearing in Washington. I noticed a bunch 
of kids in orange and red coats and I didn't know who they were 
that year coming in and I didn't know who they were when they 
sat down and during the course of this thing we had the 
bureaucracy over here saying, ``Well, we need to be regulating 
this and it doesn't hurt to have one more level of bureaucracy 
crawling over the farms. We've calculated it's only going to 
cost your Oklahoma farmers some $700 a year and they can afford 
that.'' Well, we beat the thing and these kids in the back 
stood up and applauded and it ended up being the Oklahoma Ag 
Leadership Group and I didn't even know they were there, but 
this is what he's getting at because a lot of times there is 
this attitude you find prevalent in Washington where, again, 
they're here to rule, not to serve. You, Dale, are here to 
serve. We appreciate the contributions you've made. Now, we're 
going to ask the other panel to come up. Do you have time to 
stay for the other panel or do you have to get back?
    Mr. Hall. It would be my privilege to stay here as long as 
you need me, sir.
    Senator Inhofe.  Fine. Thank you very much for being here 
today. Our next group, if you would take the stand, we have Mr. 
Jeff Neal who is a professional hunting guide conducting many 
international hunts. Mr. Neal owns 1,600 acres in southeastern 
Oklahoma near Indianola. Part of the property is in the 
Partners Program. He will testify on the improvements made on 
his land through the program and his intent to continue with 
the program. Mr. Neal is featured in the NRA-sponsored video on 
Partners Program which we just saw. The next witness will be 
Dr. Terry Bidwell. Dr. Bidwell is a wildlife biologist and 
professor at Oklahoma State University. Do you hear that, John?
    Mr. Collison. Yes, sir.
    Senator Inhofe.  He has personal property and OSU property 
in the Partners Program. Mr. Hal McKnight, Mr. McKnight is from 
Oklahoma City and he has 200 acres in the Partners Program near 
Duncan, OK and helped create the Partners Program outdoor 
classrooms in the Oklahoma City area. Ms. Straughn is a 
principal of Deer Creek Elementary School in Edmond. As I 
pointed out to her, Edmond is the largest city in Oklahoma 
without an airport. She needs to address that. She has an 
outdoor classroom for students sponsored by the Partners 
Program. Verlene Chervanka, who we've already heard from and 
we'll hear from again, owns 1,250 acres in northwestern 
Oklahoma near Sayre on his property, 315 acres are in the 
Partners Program. So this has been successful and what we'll do 
is we'll go ahead and use the 5-minute clock on this for 
opening statements. Your entire statement will be made a part 
of the record and we'll start with Mr. Jeff Neal.

     STATEMENT OF JEFF NEAL, PARTNERS PROGRAM PARTICIPANT, 
                         INDIANOLA, OK

    Mr. Neal.  Good afternoon, Mr. Chairman, and thank you for 
the opportunity to discuss my involvement with the U.S. Fish 
and Wildlife Services Partners for Fish and Wildlife Program. I 
first became involved in the Partners for Fish and Wildlife 
Program in 2001. My wife, Jennifer, and I purchased the 1,200-
acre ranch along a 5-mile stretch of the South Canadian River. 
The Neal Ranch is located in Pittsburg County along the South 
Canadian River. Our property is located just to the west of 
Lake Eufaula, Oklahoma's largest reservoir. After we purchased 
the land, we needed a lot of technical assistance to maximize 
our land for wildlife. I contacted the Partners for Fish and 
Wildlife officials in Tulsa, OK, particularly Jontie Aldrich. 
They have worked with me by providing the technical assistance, 
advised me of other State and Federal conservation programs and 
provided cost-share funding for wetland restoration and native 
grass restoration. Without the Partners for Fish and Wildlife 
Program, it would not be as productive for my family's needs 
and the wildlife resources that now live on my ranch. Our 
restored and enhanced wetlands have increased the biodiversity, 
the waterfowl, shorebirds, wading birds and other wetland-
dependent wildlife species. We see river otters frequently and 
have a pair of nesting bald eagles and a good population of the 
endangered Least Terns nesting on the Canadian River. When we 
purchased the property, it had 250 cows grazing; therefore, it 
was eroded and damaged by the cattle and their unsupervised 
grazing. We got the cows off and immediately began working with 
the U.S. Fish and Wildlife Service Partners Program. During the 
first 2 years we owned the property we rarely saw any evidence 
of much wildlife. Since the Partners Program has assisted with 
the development of the dikes and planning of the 120-acre 
native grass area, we now see a lot of deer, turkey, quail and 
most plentiful waterfowl and shorebirds. For instance, I 
arrived at the ranch last Friday, April 15, 2005, at 5 p.m. and 
by 5:30 I had seen over 300 teal; geese; 20 to 30 American 
white pelicans; a herd of deer; and 2 flocks of turkey. Before 
the help of the Partners Program, the areas that now hold these 
species were beat down and overgrazed fields. Conservation, 
preservation and maintaining habitat for wildlife isn't 
something new to me. I've enjoyed a career of 30 years in the 
international hunting industry and have had the opportunity to 
witness all kind of lands worldwide that maintain the 
population of wildlife. My belief is if we don't create habitat 
and maintain it, there will no future in America for our 
wildlife. As human population soars, animals can lose. As I've 
witnessed in most of the African and European countries that 
still have wild and unfenced wildlife, the only reason they 
have this is because they have provided good habitat, food 
source and most of all good supervision. When I mention 
supervision, I'm referring to private land that is controlled 
by someone such as in the United States. It would be more than 
likely the landowner. We must create habitat for wildlife and 
protect it and with the partnership between the U.S. Fish and 
Wildlife Partners Program and the landowners, it is a win-win 
situation.
    Senator Inhofe.  Thank you very much, Mr. Neal.
    Dr. Bidwell.

         STATEMENT OF TERRY BIDWELL, PARTNERS PROGRAM 
          PARTICIPANT, WILDLIFE BIOLOGIST, PROFESSOR, 
                   OKLAHOMA STATE UNIVERSITY

    Dr. Bidwell.  Thank you, Senator. It's a pleasure for me to 
be here today. I'm speaking both as a private landowner and 
also a representative of Oklahoma State University, so I kind 
of have two hats to wear today. Jeff was smart to double space 
his and I didn't, so I'm not going to try to read mine. My 
bifocals don't focus that well anyway, but I think I can 
summarize quite well. My wife and I have been involved with the 
land for many years in Oklahoma. Three of our four sets of 
grandparents were all homesteaders here in Oklahoma, so we've 
been around land our whole life. We've been through many 
different kinds of programs and the Partners Program is a real 
success. We've been involved in our private land in northern 
Payne County for about 10 years with the Partners Program. 
We've developed three or four wetlands depending on what you 
define as a wetland on our riparian zones. We had there one 
that needs to be repaired. We've used three free stock tanks 
and fencing through the Partners Program to restrict the 
livestock access to the water, which, in turn, has really 
benefitted the livestock themselves. It reduces the chances for 
disease and parasites, so that's a benefit. Also, if any of you 
have cattle, you realize in the wintertime sometimes you need 
to chop ice and having those freeze-proof tanks there makes 
me--I can be a little lazier and I can quail hunt instead of 
chopping ice for the cattle, so there's a benefit. We also use 
our place as kind of an avenue for single-parent families, for 
people to come out who have children that want to fish or hunt 
that aren't able to go out and do that thing. We sponsor duck 
hunts for kids, for example we take kids fishing, we have a Boy 
Scout troop that comes out on and uses the area quite a lot, so 
a lot of people get benefit from the Partners Program on our 
land beyond just our family.
    The next issue is my job. In the past 31 years I've worked 
for several agencies. Now I work for Oklahoma State University 
and I've seen plenty over the years of various programs that 
have came and went with cost-share programs, government 
programs and privacy of the private landowners. It's been 
stated here many times today the key is cooperation and that's 
what I see with the Partners Program that is really great and 
it also interfaces very well with other government cost-share 
programs, it doesn't overlap them, but it's very complimentary. 
So in my job with OSU, if people don't invite you to their 
land, I don't have a job; in other words, it's all by 
cooperation. OSU obviously doesn't have a cost-share program to 
work with private landowners, so I know a lot of the employees 
of the Fish and Wildlife Service. Some of them are former 
students and the real key to this program that's not been 
stated today, it's very successful because of the way it's set 
up, but the biggest success are the people that the Fish and 
Wildlife Service has hired that go out and meet with those 
landowners on a one-on-one basis because that's where the war 
is either won or lost is the one-on-one contact and that's the 
real benefit of the Partners Program are the employees of the 
Fish and Wildlife Service that do that. That's not just in 
Oklahoma. I work in other States and by and large it's been a 
tremendous program because of the people that go out to the 
field and work with private landowners like myself and Jeff and 
others here.
    Mr. Neal.  Yeah.
    Dr. Bidwell.  So I really appreciate the opportunity to be 
here.
    Senator Inhofe.  Well, good. Thank you very much for that. 
Mr. McKnight.

   STATEMENT OF HAL McKNIGHT, PARTNERS PROGRAM PARTICIPANT, 
                           DUNCAN, OK

    Mr. McKnight.  Thank you. Certainly, thank you, Senator 
Inhofe, for allowing this occurrence and for your staff, the 
U.S. Fish and Wildlife Service. For my entire life, I've held 
one dream paramount above all others, that dream has been to 
improve and restore habitat. This dream has come true because 
of the Partners for Fish and Wildlife Program. We started 
working with Jontie Aldrich and the U.S. Fish and Wildlife 
Service in the early 1990s on land that has been in our family 
for five generations. Many neighbors thought I had totally lost 
my mind when we started cutting up prime grazing land in 
southern Oklahoma. Over 200 acres of wetland projects have 
proven their profound effects. Creation of these projects have 
greatly benefited our cattle operation by distributing grazing 
and by distributing water. Additionally, strategically placed 
wetlands have proven that they totally prevent soil erosion 
which we've had a great problem with in southern Oklahoma. 
Kevin Costner in the movie, Field of Dreams stated, ``Build it 
and they will come.'' Unfortunately, not one deceased baseball 
player has ever appeared at our wetlands; however, we have had 
a tremendous biodiversity of wildlife and waterfowl that have 
collected around these wetland sites. We've lost over half the 
wetlands in the United States since 1950. Loss of habitat has 
resulted in a doubling of species listed on the endangered and 
threatened list in the last 10 years. The Partners Program is 
truly a bright burning star in this darkness. It's a wonderful 
government program, a true volunteer partnership program that 
works very well except for one thing. The one thing this 
program lacks is annual funding. If this can be obtained, 
everyone involved will feel like we've won the lottery. Our 
wetland projects have received both local and national 
attention. In 1994 Conservation I was greatly honored to 
receive the National Wetland Award to the private sector. Local 
awards included recognition from the Oklahoma Wildlife 
Federation. Several documentary films and large publications 
have featured our wetlands in the area of Stephens County which 
is east of Duncan, OK. Readers Digest in 1999 did an article 
called, ``Champions of the Wild'' on our sites. A photographer 
was dispatched from Los Angeles, CA, to take my picture for the 
article. She asked me to stand in the marsh holding a saddle 
over one shoulder, a rope and a shovel over the other. If I 
would have done that, I would have drowned. Instead, I brought 
along my Labrador retriever, Hawk, and I said, ``We'll look 
stoic together.'' The photograph, fortunately, turned out 
extremely well. We received hundreds of calls and letters as a 
result of that article. About half of the correspondence was 
asking about the Partners Program and how people could benefit 
with the wetland restoration project on their land. The other 
responses inquired about stud service with my dog, Hawk. With 
over 30 million photos published in Readers Digest, Hawk became 
the most photographed dog in the world. Public awareness for 
the Partners Program is essential. Part of that responsibility 
is owned by cooperates like myself. There are zillions of 
people like myself that wish to be good stewards of lands and 
waters. The Partners for Fish and Wildlife Program allows that 
to happen. It has been a true privilege to be a cooperator in 
the Partners Program. I greatly appreciate the time and effort 
put forth by Jontie Aldrich and everyone at the Tulsa office of 
the U.S. Fish and Wildlife Service. We could not realize our 
dreams coming true without their help. I hold deep gratitude 
for champions of this program. Senator Jim Inhofe is one such 
champion in part because the Senator understands the program 
and the need for annual funding. The late Jim Valvano, who was 
coach at North Carolina State, once told me it was impossible 
to motivate anyone else. He tried his entire life to do that 
with players. Finally, one day he realized he could at best 
only motivate himself. Every morning when he would wake up, he 
would ask himself one question, Am I going to be passionate 
about this day? Jim Valvano believed passion was the key to 
success. The continued success of the Partners for Fish and 
Wildlife Program depends on the passion of everyone involved. I 
encourage all to sustain this passion. The profound effects of 
the Partners Program are limitless, thank God. Thank you.
    Senator Inhofe.  Thank you, Mr. McKnight. All right. Ms. 
Straughn, tell me why the students at Deer Creek Elementary 
School would care about this program.

STATEMENT OF DEBBIE STRAUGHN, PRINCIPAL, DEER CREEK ELEMENTARY 
                       SCHOOL, EDMOND, OK

    Ms. Straughn.  Well, Senator, thank you very much for 
allowing me to talk today. We care deeply about the Partners 
because we tried to construct an outdoor classroom initially 
with private contractors and it was a disaster. In fact, we had 
private contractors take advantage of us, so it was not until 
the Partners came along that we were able to change things 
drastically.
    I am a principal at Deer Creek Elementary. It is a Blue 
Ribbon School which is located in Edmond, OK. As a Blue Ribbon 
school, we are always looking for ways to involve our children 
in hands-on learning opportunities. It was very important to us 
to be able to add environmental studies for our children. We 
were able to do this by creating an outdoor classroom. I first 
became involved with the Partners for Fish and Wildlife Program 
in 2002, really out of desperation after what I had just 
described a little bit earlier with the previous contractors 
that we had worked with. We started making phone calls 
throughout the State of Oklahoma and that's when we found Terry 
Dupris and Jontie Aldrich at the Oklahoma Partners for Fish and 
Wildlife Service. They were able to provide us assistance and 
training with our outdoor classroom. It was a dream our school 
had. We really wanted to provide a hands-on learning 
opportunity for our children. We were in desperate need, as I 
said earlier, and the partners really came through for us by 
coming up with a new design for our outdoor classroom. The 
vision and the dream of a new outdoor classroom came into 
reality because of their guidance. We feel it's very important 
for our children to be involved in the outdoor classroom 
because it will successfully educate young children on our 
natural resources. The outdoor classroom provides the ideal 
structured learning environment. The teachers and students have 
taken ownership in our outdoor classroom. Every child at Deer 
Creek Elementary School is involved in the outdoor habitat. For 
example, our kindergarten has a bird sanctuary; our first grade 
has a flower garden; our second grade has a butterfly garden in 
the shape of a butterfly; third grade, a vegetable garden; 
fourth grade, has a flower garden in the shape of Oklahoma and 
there are flowers planted there that depicts our Oklahoma 
history and our heritage; fifth grade has a bird blind and also 
has a frog pond. Besides that, we have gazebos constructed with 
help from the U.S. Fish and Wildlife Service. We also have 
wetlands, walkways with animal tracks, and artificial nesting 
structures for wildlife. This outdoor habitat gives children an 
interactive learning environment. I want to thank you, Senator 
Inhofe, for supporting the Parters for Fish and Wildlife 
Program. I am here on behalf of all of our children at Deer 
Creek Elementary. I think the technical and financial 
assistance of the Partners Program has helped turn our outdoor 
classroom into a wonderful project. This is one government 
program that truly benefits all. Children are our future and 
environmental studies for children is disappearing. 
Approximately 2 percent of our children now have an opportunity 
to work in an outdoor classroom or learn about the environment 
compared to the early 1900's where almost all children had an 
opportunity to work the land or understand wildlife. Please 
help us to continue the Partners for Wildlife programs so that 
children can continue to explore and understand their 
environment. Thank you.
    Senator Inhofe.  Thank you very much. Mr. Chervanka.

 STATEMENT OF VERLENE CHERVANKA, PARTNERS PROGRAM PARTICIPANT, 
                           SAYRE, OK

    Mr. Chervanka.  I want to thank you, Senator Inhofe, for 
the invitation to testify at today's hearing. I'm Verlene 
Chervanka and I own 1250 acres of property in southwest 
Oklahoma near Sayre. As the video shows, I've been involved 
with Partners for Fish and Wildlife Program with other 
conservation programs for the last 6 years. I manage my entire 
ranch for conservation of wildlife. Much of my property 
operates as a cattle ranch. Another 250 acres is used for 
raising wheat. Another part of my property contains natural gas 
wells with more being planned. I have 315 acres dedicated 
strictly for the conservation of wildlife. Through cost sharing 
with the Partners for Fish and Wildlife Program and the U.S. 
Department of Agriculture programs, I have invested time and 
money in these acres that have reached great rewards. For 
example, with the help and coordination of the Partners 
Program, I have restored 40 acres of wetlands on my property. 
Since that time, this 40 acres has become a refuge for many 
waterfowl species, shorebirds and wetland birds. I've also had 
an osprey that visits my wetland every spring, I guess on its 
migration back north. This 40 acres didn't need to be 
designated as a refuge by the Federal or State Governments. I 
made this decision to create the refuge on my own property. 
That is important to me and that is the kind of assistance that 
the Partners Program provides. These conservation practices 
have also turned my property into that sanctuary for wild 
turkeys and deer as you see on the video.
    Before my involvement in the Partners Program, it was rare 
to find such game on my property. In fact, due to the success 
of the Partners Program on my property, other ranchers in 
southwest Oklahoma have been interested in starting their own 
projects. I also want to testify--I also want to especially 
thank the local Partners Program here in the Fish Wildlife 
Service offices in Tulsa. I think it's very important to point 
out that the success of this program in Oklahoma is due in 
large part to the director of this program, Jontie Aldrich. 
Jontie and his staff have done a great job in establishing a 
great reputation for the Partners Program in Oklahoma. The 
Partners team has worked hard to build a reputation of trust 
between the private landowner and the Partners Program. 
Landowners know that this program is about the Federal 
Government coming in--is not about the Federal Government 
coming in and telling you what you could do or can't do on your 
own land. The Partners Program has developed a strong 
reputation to help the private landowners to create habitat. 
The program is appropriately named the Partners Program because 
it is a real partnership of government and private landowners 
working together. All states should have a great working 
relationship with landowners in Oklahoma, as landowners in 
Oklahoma have with the Partners Program. I can't compliment 
Jontie Aldrich enough to administrate this program. Without him 
it would never have been possible. Also I want to say that--
Jontie will probably verify this, like I mentioned earlier when 
the Senator asked me that question about the government 
programs, you know, you always get a little scared of 
government programs, in fact you might be afraid of them, so 
when Jontie came out and we got this program administered and 
everything was ready to go, I said, ``Jontie, tell me for sure 
what kind of red tape is involved, am I going to be in any 
danger in any way in this program?'' He said, ``definitely 
not.'' He made me feel real secure. He said, ``You're the man, 
you're the caretaker of this program, and that's--that's what I 
like.'' He convinced me and I convinced--tried to convince 
everybody else. We have field days out at least once or twice a 
year with other landowners that come out and see what's taking 
place and I really appreciate it. Senator, I know you're a 
great protector of this program and I want to thank you. Thank 
you for your time.
    Senator Inhofe.  Thank you very much. We are--it's a joy to 
do this, really. There are some things in my job that aren't 
much fun, but this is. Let me just ask a couple of questions 
here, things that will come up I'd like to have you folks put 
in the record. I'll start with you, Mr. Neal. We know this is 
completely voluntary. Have you found that the program in any 
way limits your property rights?
    Mr. Neal.  No.
    Senator Inhofe.  How about any of the rest of you, any--I'd 
like to get----
    Mr. Chervanka.  Absolutely not.
    Mr. McKnight.  No.
    Senator Inhofe.  Dr. Bidwell, I know you have personal 
property.
    Dr. Bidwell.  (Shakes head.)
    Mr. McKnight.  Not at all.
    Senator Inhofe.  When you said that there's some things 
when Jontie came along and they were putting this program 
together, were there some things that you would not have 
understood if it hadn't been for their technical advice and 
help?
    Mr. Chervanka.  I wouldn't have understood them. I had 
Jontie to explain them to me. One thing, you know, you kind of 
hesitate because this was a big project, it took a long time to 
complete it, you know, am I going to be allowed even on my own 
place after we put these wetlands in, and he said, ``You're 
going to be the guy running the property and you're going to be 
the caretaker.'' I'll tell you, I am a caretaker and they come 
out quite often to inspect it, which I'm really glad they do, 
and I have other people come out, Jontie, if anybody ever wants 
to come out to the place and inspect that, that's what we've 
got to have.
    Senator Inhofe.  Yeah. Well, you know, you hear the 
negative things. I was in a town hall meeting not too long ago 
in Kingfisher----
    Mr. Chervanka.  I might say--mention one other thing, 
Senator, and first I really got upset, you know, with CRP land. 
I just didn't--I didn't fully understand and I've been in CRP 
for 20 years. Well, they drilled a gas well on this CRP land 
and I thought everything was taken care of and they knew that 
everything was taken care of and the oil company said it was 
all taken care of. Well, they drilled this well. Everything 
went good and all of a sudden I get a real bad letter from the 
government, you know, that I owed all this money back, that it 
wasn't reported and I got fined, I don't know. How much was it?
    Unidentified speaker. 1200.
    Mr. Chervanka.  How much?
    Unidentified speaker. 1200.
    Mr. Chervanka.  A $1250 fine. It just made me feel bad. 
Said if you declare bankruptcy, we're going to do all of this, 
do all this, so I take it over to the USDA office. They said 
it's just a formality letter, but, see, this is the kind of 
deal that you get into and we got it straightened out, I paid 
$1250, called the Chesapeake Oil Company and they claimed 
they're going to refund that money to me.
    Senator Inhofe.  You know, I would tell a story, but it 
wouldn't have--be very germane to this hearing, but when I said 
that we are attempting to get--to have an attitudinal change in 
bureaucracy, that's exactly what I'm talking about. I can 
remember the EPA making people believe they're going to be 
assessing fines on something on which they had no control. 
That's the type of thing we're going to change and I think you 
people are being very cooperative in this program.
    Dr. Bidwell, I guess we should have started off by thanking 
you. You're the one here representing Oklahoma State 
University. We're using your facilities and we appreciate that 
very much. You look at it from a landowner and also in your 
relationship with Oklahoma State University. What types of 
benefits can you see in terms of economic development would 
come from this program?
    Dr. Bidwell.  One of the big issues in Oklahoma with the 
Oklahoma legislature and the Governor has been the interest in 
revitalizing rural communities throughout the State of 
Oklahoma. One of the big areas that has tremendous potential is 
recreational leasing, whether it be hunting and fishing. We 
work with ranchers now in western Oklahoma and western Texas 
who are doing bird watching trips and a number of other things 
other than traditional land use that have greatly supplemented 
their income. There are small rural communities now getting 
together networks to form cooperatives, if you will, or ideas 
that actually market this type of activity in western Oklahoma 
in particular, but even in eastern Oklahoma, so that's a--
Partners Program has assisted landowners in developing areas 
that are beneficial to not only their livestock and farming 
operations, but also the secondary type of income and 
recreational leasing and that's a story that maybe the Oklahoma 
legislature hasn't heard of before as they probably need to 
because we see good examples of that all over the State.
    Senator Inhofe.  I appreciate that. Ms. Straughn, you've 
talked about your outdoor programs and your outdoor classrooms. 
Walk us through one.
    Ms. Straughn.  Well, it is a place where not only children 
go, but the teachers and also the parents. We have trails that 
lead you down into the actual facility and along the trails you 
see various varieties of trees. The children have made little 
hand plaques that tell the variety of the trees, and then you 
go to the various areas that every grade level has developed. 
Every child has their hands in the soil. They're planting, 
digging, and picking fruit and vegetables. You can walk through 
the trails that take you through the wetlands area, then we 
have a large area of trees. They're locust trees that children 
can walk through a pathway. There's a bird blind in the trees 
where children can actually observe birds. We also have a frog 
pond. You can look at the tadpoles and watch as they become 
frogs. Our outdoor clssroom also has an amphitheater where 
children can do science experiments. They also put on plays. 
There's a pavilion that our parents have built and they go 
there for outdoor science lessons. We also have a bird 
sanctuary where students can observe birds.
    Senator Inhofe.  Is this all on school property?
    Ms. Straughn.  It's all on school property. We actually had 
a blank piece of land. We bought a new facility 3 years ago. 
The only thing that was on the land were some locust trees in 
the back. We got together as a school and we developed a vision 
for a new outdoor classroom. We did a lot of research and 
studying. We found that children just are not exposed to the 
environment anymore. Houses are built so close together. 
Families are moving away from the rural areas and we wanted our 
children to have an opportunity to be part of the outdoor 
environment. This is a dream come true.
    Senator Inhofe.  I found this really interesting. One of 
the things that I have done since I've chaired this committee, 
we discovered that there are discretionary grants that are 
being sent out all the time from the EPA that are filling our 
young kids' minds full of garbage science and things that just 
aren't true and a lot of it comes from these far-left 
environmentalist groups. You saw just last week that the 
environmental liberation front actually fire-bombed a building, 
they've killed people. These things are going on right now and 
I contrast that with how you describe this program. I think--
John, I want you to schedule me to go by and see this. You 
know, obviously the school, that's a State issue; however, I've 
been looking for a Federal handle as an excuse to go in there 
to get to see so I could go back with some alternatives to what 
they're doing. By the way, we have stopped those discretionary 
grants taking place, so I'll be by to see you.
    Ms. Straughn.  One thing, too, Senator Inhofe, is that as 
you know, the No Child Left Behind Act, that everyone is 
familiar with has, created an academic performance index score. 
Every school in Oklahoma has to take certain kinds of State 
tests that gives you an exit score. Our school, Deer Creek 
Elementary School, if I could brag just a little bit, had the 
highest API score out of every high school, middle school and 
elementary in the whole State of Oklahoma last year. We were 
No. 2 this year and I believe it's because of programs like our 
outdoor classroom where children are learning at the highest 
level. Our children are smiling while they're enjoying their 
environment, they are also working together. That's what all 
this is about. We have to learn to be team players and be able 
to work alongside with each other.
    Senator Inhofe.  That's great. Something that would be good 
for other schools to do, too. Mr. McKnight, have you found that 
this Partners Program offers a meaningful incentive; in other 
words, you'd be doing things you otherwise wouldn't do?
    Mr. McKnight.  Well, I was--it was trying to open a can 
with a sledgehammer, a lot of the efforts that we were putting 
forth just were not effective, and through the Partners 
Program, which has been consistent, we started getting involved 
with this in the early 1990's and this program has been right 
on. It has been consistent. The information that we've been 
able to gain from this and you start working with Mother Nature 
and she will give you a score card. It may not be the one you 
want, but we've learned a lot from our successes as well as 
from our failures on this. But this program and being 
administrated through U.S. Fish and Wildlife Service has been 
consistent as the sunrise and I think that's one of the things 
that we've talked about in this a lot and there's a degree of 
paranoia when you go into a partnership with anything with the 
United States starting the title of.
    Senator Inhofe.  Uh-huh.
    Mr. McKnight.  We have learned through our efforts that 
there's really nothing to fear and it's definitely been a true 
partnership. It's definitely been a win-win situation and we're 
continuing to do this and a lot of the neighbors that were 
concerned about what we were doing originally have become 
partners themselves, so it's been a very successful experience. 
To relate to some of what Debbie is saying, we still have inner 
children in all of us and to go out and work the land and the 
water and to see a difference, it's hard to explain that to 
someone that hasn't shared that experience, and in Oklahoma 90 
percent of the land is privately owned, so for this to move 
forward, for us to restore habitats and wetlands, it does take 
a partnership situation and there are moneys that come--about 
approximately between 30 and 40 percent that comes from the 
Government to fund this project, but we do not lose any of the 
integrity of the private ownership that we have of our land, 
plus there's a little of sweat equity involved. I've never seen 
Jontie sweat, I don't know what the man does, but he is--he is 
out there.
    Senator Inhofe.  Jontie, come down and sweat for us.
    Mr. McKnight.  He and the staff of the U.S. Fish and 
Wildlife Service have been extremely involved in helping us 
troubleshoot situations and to go ahead and sometimes it seems 
like, well, there's a risk worth taking and they have guided us 
in ways we've all succeeded.
    Senator Inhofe.  Let me do something a little bit 
irregular, we'll limit this, but Mrs. Paula Templeton with the 
Wagoner Conservation District has also set up four outdoor 
classrooms; is that correct?
    Ms. Templeton. We have three.
    Senator Inhofe.  You have three others and do you want to 
make a short statement?
    Ms. Templeton. I wanted to make a short statement about the 
staff. Ken Williams, Jontie, Terry Dupris, they get on their 
knees and their hands and help you mud-in grass. They do 
whatever they have to do to help you. We were met by doing 
outdoor classrooms for different schools in Wagoner County and 
I work for the Conservation District there. We would head up 
like 10 learning stations and we would rotate the students 
through, 200 at a time, and Mr. Aldrich came and talked to me 
and said, ``You know, you ought to have an outdoor classroom 
and keep these kids on school property so you don't have to bus 
them, they're right here.'' I said, ``I don't even know what to 
do.'' He said, ``I'll help you, because I'm just a secretary, a 
plain Jane woman,'' but buddy he can teach you how to do the 
job, and we built gazebos, we built the trails, but you know 
the best part was, it wasn't just ``T'' and I, it was 
communities and it was brought on by the U.S. Fish and Wildlife 
Service. It brought people that were just local citizens out to 
do the job. It made a partnership with them and also working as 
partners with the Natural Resources Conservation Service, I've 
worked with him on Partners for Wildlife programs with our 
farmers. Never have I had a bad comment. Schools are happy with 
them and she will testify, too, that they don't come back to 
the school and harass them and say, You have to do this, you 
have to do that, they work with them on a one-on-one basis and 
when we're through, we're through. I recommend you fund them 
all the time. They're good people.
    Senator Inhofe.  OK.
    Ms. Templeton. I just wanted to mention that to you. 
They're good. Give it to them.
    Senator Inhofe.  All right. Well, let me--both Dr. Bidwell 
and Ms. Straughn have talked about how this program has helped 
kids. The other three of you have any experiences you could 
share with us as to the benefits of young people from this 
program?
    Mr. McKnight.  We've built--in central Oklahoma, we've 
built several Partners Program called Eagle Ridge Institute and 
we have a lot of inner-city kids from Oklahoma City to that 
site to fish. Oklahoma Department of Wildlife has been very 
helpful in that. A lot of kids that have never seen a fish, 
never seen a fishing rod, the first thing you learn is you bend 
the bars back on the hooks, but from that an entire area is 
being basically directed to inner-city youth adjacent and 
because of the catalyst of the Partners Program that we've been 
able to put in there and there's--yeah, we're just scratching 
the surface I think. Kids know a tremendous amount about 
wildlife and about nature. You know, they just--they're hungry 
to learn more and love to be a part of it. We've used them and 
involved them in putting up wood duck boxes and goose nests. 
They love to be part of that. That's where the future lies, so 
this program certainly has a wonderful outreach to kids of all 
ages.
    Senator Inhofe.  That's great. That's great. Any other 
comments on that subject?
    Ms. Straughn.  I'd like to say one thing on that, too. 
We've been having visitors from all over the country visit our 
outdoor classroom. We even have schools from overseas, too 
Jontie and Terry Dupris' have been a tremedous help to our 
school. It's spreading to other States. There's even an outdoor 
classroom in Germany. The presence of the U.S. Fish and 
Wildlife Service, has made a tremedous impact. In fact, if you 
have a chance to look at our PowerPoint presentation later, you 
can see that children are actually interacting with the U.S. 
Fish and Wildlife Service.
    Senator Inhofe.  OK. I have everything I need, but if 
there's any one of the five of you who just really want to say 
something else, this is your chance to do it.
    Mr. Neal.  I'd like to say it's trust. You know, we have to 
trust these guys and you can trust them. I'd like to go back to 
the moment I met Jontie Aldrich. I bought this piece of 
property and I contacted Terry Bidwell. Terry was my first 
person when I was excited, I had this dream property, Terry 
came out, we sat in the car for 6 hours or something, and he 
gave me the best advice of anybody, he said, ``Talk to all the 
agencies, talk to everybody, learn the property and pick out 
who you think has got their act together.'' I had many 
different people out, local and from--in the area and from the 
state and ``T'' came out and he said, ``Trust your fellow 
man.'' He said, ``This is the greatest piece of property in the 
State of Oklahoma,'' you can do so many great things with it, 
but I'm in the hunting business and when you see a guy with a 
badge come up, you expect, Can I see your hunting license, and 
that's not the--that's not the situation here. This is a 
marriage, a relationship, a partnership that does work and 
these people will become the landowners' best friends. I just 
can't say enough about putting funding towards it.
    Dr. Bidwell.  You didn't invite me back.
    Mr. Neal.  You stayed too long the first time.
    Senator Inhofe.  I guess 6 hours was long enough. Well, 
anyway, thank you all five for coming today. We do have what we 
need. We have--it's a program that we will pass through, it 
will be expanded, it will be permanent and it will be 
predictable, something you can put together. I want to thank 
you and all of your people who have come from the Wildlife 
Service as well as the landowners and my staff and appreciate 
very much being a part of this. It's a good program and we're 
going to make it work better. We're adjourned.
    (Whereupon, the hearing was concluded.)
    [Additional statements submitted for the record follow:]

   Statement of Dale Hall, Regional Director, U.S. Fish and Wildlife 
                                Service
    Mr. Chairman, and Members of the Committee, thank you for the 
opportunity to discuss the U.S. Fish and Wildlife Service's (Service) 
Partners for Fish and Wildlife Program and S. 260, the Partners for 
Fish and Wildlife Act. I am Dale Hall, Regional Director, Southwest 
Region of the U.S. Fish and Wildlife Service.
    The Service is the lead Federal agency responsible for conserving 
and protecting the Nation's fish and wildlife resources. Throughout the 
United States, the Service strives to fulfill this responsibility to 
the American public through the establishment of innovative programs 
that implement the Secretary of the Interior's four C's initiative 
Conservation through communication, consultation, and cooperation.
    The Service firmly supports the philosophy that by working 
together, the Federal government and private landowners can achieve 
tremendous success in habitat conservation. In August 2004, President 
Bush signed an Executive Order on Cooperative Conservation asking all 
agencies to strengthen their efforts to work together and with Tribes, 
States, local governments, and landowners to achieve conservation 
goals. The Partners for Fish and Wildlife Program exemplifies the 
Service's dedication to cooperative conservation and our commitment to 
work with private landowners to further the country's conservation 
goals while honoring individual rights. Many Partners Program projects 
achieve conservation goals alongside ongoing, productive economic 
activities. Through these efforts, the Service helps the Nation achieve 
and maintain healthy lands and waters, thriving communities, and 
dynamic economies.
    The Service has long recognized that successful protection of many 
fish and wildlife species depends significantly on the protection and 
management of habitat. The vast majority of this habitat is in private 
ownership. It is, therefore, imperative that the Service look for 
opportunities to partner with private landowners to protect species and 
enhance their habitat on private lands. Such cooperative conservation 
provides opportunities to enhance habitat while maintaining private 
property rights; it also engages the public in private stewardship. 
Because restored habitats provide important food, cover, and water, 
this strategy can contribute to the Service's mission to conserve trust 
species such as migratory birds and inter-jurisdictional native fish, 
threatened and endangered species, and to control and reduce the spread 
of invasive species.
    To help achieve these goals, in 1987 the Service established the 
Partners for Fish and Wildlife Program (Partners Program) under the 
broad authority of the Fish and Wildlife Coordination Act and the Fish 
and Wildlife Act of 1956. The Partners Program is a voluntary habitat 
restoration program that recognizes the long-standing and strong 
natural resources stewardship ethic present in many private landowners. 
The Partners Program helps these landowners restore wetlands and other 
important habitat on their lands. Through the program, the Service is 
able to fund on-the-ground projects that enhance, restore, or protect 
wildlife habitat.
    The program also leverages funds, working to maximize the benefits 
and minimize the costs for projects. On average, the Service succeeds 
in leveraging Service resources against non-Service resources by a 2-
to-1 match ratio. Over the past 16 years, almost 35,000 agreements with 
landowners have been completed. The resulting partnerships between the 
Service and private landowners have resulted in the protection, 
restoration, and enhancement of nearly 2.5 million acres of private and 
tribal habitat nationwide.
    In Oklahoma, the Partners Program has experienced tremendous 
success. Since 1990, the Service has initiated 684 projects on over 
128,000 acres of private land. This includes 14,400 wetland acres, 
82,600 grassland acres, 1,300 woodland and shrubland acres, 25,100 
acres of other habitat, and 236 riparian stream miles. Furthermore, 
Partners Program funds have created over 100 outdoor education 
classrooms on school campuses that will provide future generations of 
Americans with hands-on experience working with the land and wildlife.
    The cooperative conservation fostered by these projects has 
benefited not only fish and wildlife species, but also local 
communities in Oklahoma. For example, at the Deep Fork Ranch owned by 
Robert Baker, 400 acres of wetlands have been enhanced, restored and 
protected using Partners Program funds. These restored wetlands provide 
optimum migrating, wintering, and breeding habitat for waterfowl, 
shorebirds, wading birds and other wetland dependent wildlife species, 
as well as essential habitat for many neotropical birds. Since these 
restoration activities were completed at Deep Fork Ranch, the area's 
biodiversity has dramatically increased, and Mr. Baker and neighboring 
landowners have benefited as well. The Deep Fork River community has a 
long history of damaging floods caused, in part, by past land use 
practices in the watershed. However, Mr. Baker's project has increased 
the water-holding capacity of the land and will help reduce water 
volume and velocity on neighboring properties when flooding events 
occur in the future.
    The Administration evaluated the Partners Program for the FY 2004 
budget through the Program Assessment Rating Tool (PART). The PART 
analysis found that the program was optimally designed to encourage 
habitat restoration and conservation on private lands and is achieving 
annual performance goals directed at benefiting fish and wildlife 
resources. The PART acknowledged the lack of specific authorization for 
the program, identified general authority for the program, and 
consensus among the interested partners on the program's purpose.
    S. 260, the Partners for Fish and Wildlife Act, would codify the 
Partners for Fish and Wildlife Program. Because of the tremendous 
success of the program in working with private landowners to conduct 
cost-effective habitat projects for the benefit of fish and wildlife 
resources in the United States, the Administration supports this 
legislation. However, to ensure that the program retain its present 
character and flexibility to work with private landowners and to be 
consistent with the President's Budget, the Service would like the 
opportunity to work with the Committee to make technical changes to the 
bill.
    In summary, the Service is lead Federal agency responsible for 
conserving and protecting the Nation's fish and wildlife resources. The 
Partners for Fish and Wildlife Program is a voluntary, incentive-based 
habitat restoration program focusing on private and tribal lands that 
utilizes an innovative approach to further cooperative conservation 
throughout the country. The Service is encouraged that Congress is also 
committed to cooperative conservation and support the Partners Program. 
As a Federal agency, we will continue to strive to fulfill our 
responsibility to the American people to protect and conserve our 
nation's public resources. We continue to recognize that our success is 
tied to our ability to work with others in the name of conservation 
including private landowners.
    Mr. Chairman, this concludes my statement on the Service's Partners 
for Fish and Wildlife Program and S. 260. I would be happy to answer 
any questions you or the other Members of the Committee might have.
                                 ______
                                 
    Statement of Jeff Neal, Partners Participant from Indianola, OK
    Good afternoon Senator, thank you for the opportunity to discuss my 
involvement with the U.S. Fish and Wildlife Service's Partners for Fish 
and Wildlife Program.
    I first became involved with the Partners for Fish and Wildlife 
Program in 2001. My wife, Jennifer, and I purchased a 1,200 acre ranch 
along a five mile stretch of the South Canadian River. The Neal Ranch 
is located in Pittsburgh County along the South Canadian River. Our 
property is located just to the west of Lake Eufaula, Oklahoma's 
largest reservoir.
    After we purchased the land we needed a lot of technical assistance 
to maximize our land for wildlife. I contacted the Partners for Fish 
and Wildlife officials in Tulsa.
    They have worked with me by providing the technical assistance, 
advised me of other state and federal conservation programs and 
provided cost-share funding for wetland restoration and native grass 
restoration. Without Partners for Fish and Wildlife Program, it would 
not be as productive for my family needs and the wildlife resource that 
now lives on my ranch.
    Our restored and enhanced wetlands have increased the biodiversity 
for waterfowl, shorebirds, wading birds and other wetland dependent 
wildlife species. We see river otters frequently and have a pair of 
nesting Bald Eagles and a good population of endangered Least Terns 
nesting on the Canadian River.
    When we purchased the property it had 250 cows grazing, therefore, 
it was eroded and damaged by the cattle and their unsupervised grazing. 
We got the cows off and immediately began working with the U.S. Fish 
and Wildlife Service Partners Program. During the first 2 years we 
owned the property, we rarely saw evidence of much wildlife.
    Since the Partners Program has assisted with the development of the 
dikes and the planting of a 120 acre native grass area, we now see a 
lot of deer, turkey, quail, but most plentifully waterfowl and 
shorebirds.
    For instance, I arrived at the ranch last Friday, April 15, 2005 at 
5:00 p.m. and by 5:30 I had seen over 300 teal, Geese, 20 to 30 
American white Pelicans, a herd of deer and two flocks of turkey.
    Before the help of the Partners program the areas that now hold 
these species were beat down and over grazed fields.
    Conservation, preservation and maintaining habitat for wildlife 
isn't something new to me. I have enjoyed a career of 30 years in the 
international hunting industry and have had the opportunity to witness 
all kinds of lands worldwide that maintain populations of wildlife.
    My belief is if we don't create habitat and maintain it there will 
be no future in America for our wildlife. As human population soars, 
animals lose.
    As I have witnessed in most of the African and European countries 
that still has wild and unfenced wildlife, the only reason they have 
this is because they have provided good habitat, food source and, most 
of all, good supervision. When I mention supervision I am referring to 
private land that is controlled by someone such as in the U.S. it would 
more than likely be the land owner.
    We must create habitat for wildlife and protect it, and with a 
partnership between the U.S. Fish and Wildlife's Partners Program and 
the landowner it's a Win - Win situation.
    Thank you.
                                 ______
                                 
 Statement of Terry Bidwell, Partners Participant, Wildlife Biologist, 
                and Professor, Oklahoma State University
    Three of our four sets of grandparents were homesteaders in 
Oklahoma. Thus we have been involved in agriculture and land management 
for many years. Our family has been a cooperator with the U.S. Fish and 
Wildlife Service's Partners for Fish and Wildlife Program for about 10 
years. This Program has helped us develop 3 wetlands on riparian zones 
in 213 acres of tallgrass prairie. Cattle are excluded by fencing from 
these wetlands to maintain water quality (reduced turbidity), provide 
nesting cover for resident waterfowl, and provide a fall/winter/spring 
food source for migrating waterfowl and other wildlife. The water 
control structures on these wetlands allow us to change the water level 
to facilitate the growth of plants that benefit both fish and wildlife. 
Freeze-proof stock tanks installed below these wetlands provide a 
dependable source of high quality water for cattle (no water born 
diseases or liver flukes) and eliminates the need for chopping ice 
during cold weather.
    Over the years, this project has been greatly enjoyed by our family 
and others. We have hosted public school groups for conservation 
education and our Boy Scout troop camps around these projects monthly. 
We have also hosted Quail Unlimited Field days and cattlemen's tours on 
the value of the Partner's Program to landowners. The Partners Program 
is not only valuable to fish and wildlife habitat management but also 
contributes to rural economic development and diversification for 
ranching and farming enterprises by increasing landowner's ability to 
lease for recreation.
    For the past 31 years I have worked with private land owners as a 
consultant in rangeland and forestland management with an emphasis in 
restoration of native plant communities for integration of wildlife and 
livestock enterprises. For the past 25 years I have worked for Oklahoma 
State University in research and extension targeting the needs of 
private landowners. Habitat for wildlife and livestock can be mutually 
beneficial as demonstrated on many farms and ranches in Oklahoma and 
elsewhere throughout the country. The Partners Program is an integral 
part of natural resource initiatives that benefit private lands and 
environmental quality. The Partners Program is complementary to other 
private, State, and Federal programs that help landowners plan, 
implement, and maintain conservation practices on their land.
                                 ______
                                 
    Statement of Hal McKnight, Partners Participant from Duncan, OK
    My name is Hal McKnight. For my entire life I have held one dream 
above all others. That dream has been to improve and restore habitat. 
This dream has come true because of the Partners for Fish and Wildlife 
Program.
    We started working with Johntie Aldrich from the U.S. Fish and 
Wildlife Service in the 1990's on land that has been in our family for 
5 generations. Many neighbors thought I had lost my mind when we 
created wetlands across prime grazing land in Southern Oklahoma. Over 
200 acres of wetland projects have proven their profound effects. 
Creation of these projects has greatly benefited our cattle operation 
by spreading out both available water and grazing. Additionally, 
strategically placed wetlands prevent soil erosion.
    Kevin Costner in the movie ``A Field of Dreams'' stated, ``Build it 
and they will come.'' Unfortunately, not one dead baseball player has 
appeared at our sites, but countless species of waterfowl and wildlife 
have.
    We have lost half the wetlands in the United States since 1950. 
Loss of habitat has resulted in a doubling of species placed on the 
Endangered and Threatened Lists.
    The Partners Program is a bright burning star in this darkness. 
It's a wonderful government program. A true volunteer partnership 
program that works very well, except for one thing.
    The one thing this program lacks is annual funding. If this can be 
obtained everyone involved will feel like they just won the lottery!
    Our wetland projects have received both local and national 
attention. In 1994, I was greatly honored to receive the National 
Wetlands Conservation Award to the private sector. Local awards have 
included recognition from the Oklahoma Wildlife Federation.
    Several documentary films and large publications have featured our 
wetlands. Readers Digest in 1999 did an article called Champions of the 
Wild on our sites.
    A photographer was dispatched from Los Angeles to take my picture 
for the article. She asked me to stand in a marsh holding a saddle over 
one shoulder and a shovel over the other and to look `stoic'.
    Half of the responses concerned wetland and half inquired about 
stud service, exclusively about Hawk, my Lab.
    In all seriousness, public awareness for the Partners Program is 
essential. Part of that responsibility is owned by cooperates like 
myself.
    There are zillions of people that, like myself, wish to be good 
stewards of lands and water. The Partners for Fish and Wildlife Program 
allow that to happen. It has been a true privilege to be a cooperator 
in the Partners Program.
    I greatly appreciate the time and effort of Johntie Aldrich and 
everyone at the Tulsa office of the US Fish and Wildlife Service.
    I hold deep gratitude for the champions of this program. Senator 
Jim Inhoff is one such champion In part because the Senator understands 
the program and the need for annual funding.
    Thank you.
                                 ______
                                 
 Statement of Debbie Straughn, Principal, Deer Creek Elementary School 
                               Edmond, OK
    Good afternoon Senator, thank you for the opportunity to discuss my 
involvement with the U.S. Fish and Wildlife Service's Partners for Fish 
and Wildlife Program.
    I am the principal at the Deer Creek Elementary School, which is 
located in Edmond, Oklahoma. I first became involve with the Partners 
for Fish and Wildlife Program in 2002, when I contacted Terry Dupree 
and Johntie Aldrich of the Oklahoma Partners for Fish and Wildlife 
Program for assistance with my school's Outdoor Classroom. We had 
contracted with a private vendor to develop a wetland, but it turned 
out to be a disaster and a liability. We were desperately in need of 
assistance and the Partners for Fish and Wildlife Program came to our 
aid and provided funding and a new wetland design.
    To successfully educate young people on our natural resources, 
Outdoor Classrooms provide the ideal structured learning environment. 
The teachers and students have taken ownership in our Outdoor 
Classroom. Our Outdoor Classroom features a gazebo, walkways with 
animal tracks, artificial nesting structures for wildlife, provides 
wildlife habitat and provides a interpretive and interactive learning 
environment.
    I want to thank you Senator Inhofe, for supporting the Partners for 
Fish and Wildlife Program. I think the technical and financial 
assistance of the Partner's Program has helped turn our Outdoor 
Classroom into a wonderful project. This is ``one'' government program 
that truly benefits all.
                                 ______
                                 
    Statement of Verlene Chervanka, Partners Participant, Wildlife 
          Biologist, and Professor, Oklahoma State University
    Good afternoon and thank you Senator Inhofe for the invitation to 
testify at today's hearing. I am Verlene Chervanka, and own 1,250 acres 
of property in northwestern Oklahoma near the Sayre, Oklahoma. As the 
video indicated, I've been involved with the Partners for Fish and 
Wildlife Program with other conservation programs for the last 6 years.
    I manage my entire ranch for conservation and wildlife. Much of my 
property operates as a cattle ranch. Another two hundred fifty acres is 
used for raising wheat. Another part of the property contains natural 
gas wells with more being planned. I have 315 acres that is dedicated 
strictly for conservation and wildlife.
    Through cost-sharing with the Partners for Fish and Wildlife 
Program and U.S. Department of Agriculture programs I have invested 
time and money in these acres and have reaped great rewards. For 
example, with help and coordination through the Partners Program I have 
restored 40 acres of wetlands on my property. Since that time this 40 
acres has become a refuge for many waterfowl species, shorebirds and 
wading birds. I also have an osprey that visits my wetland every 
spring, I guess on its migration back north This 40 acres didn't need 
to be designated a refuge by the federal or state government. I made 
the decision to create a refuge on my own property. That is important 
to me, and that's the kind of assistance that the Partners Program 
provides. These conservation practices have also turned my property 
into a sanctuary for wild turkey, as you saw in the video, and deer. 
Before my involvement in the Partners Program it was rare to find such 
game at all on my property. In fact, due to the success of the Partners 
Program on my property, other ranchers in Northwest Oklahoma have 
become interested and started their own projects.
    I also want to especially thank the local Partners Program here in 
the Fish and Wildlife Service Office in Tulsa. I think it is very 
important to point out that the success of this program in Oklahoma is 
due in large part to the director of the Program, Jontie Aldrich. 
Jontie and his staff has done a great job in establishing a great 
reputation for the Partners Program in Oklahoma. The Partners team has 
worked hard to build a reputation of trust between the private 
landowners and the Partners Program. Landowners know that this Program 
is not about the federal government coming in and telling you what you 
can and can't do on your own land. The Partners Program has developed a 
strong reputation of helping private landowners create habitat. The 
Program is appropriately named the Partners Program because it is a 
real partnership of government and private landowners working together. 
All states should have the great working relationship landowners in 
Oklahoma have with our Partners Program. I cannot compliment Jontie 
enough for his work.
                                 ______
                                 
    Statement of Andrew B. McDaniels, Executive Director, Oklahoma 
                          Wildlife Federation
    On behalf of the thousands of members and supporters of the 
Oklahoma Wildlife Federation (OWF), I would like to take this 
opportunity to thank Chairman Inhofe and Committee members for the 
opportunity to submit written testimony on the Partners for Fish and 
Wildlife Act (S. 260). I would also like to express our deepest thanks 
to Chairman Inhofe for introducing this legislation.
    The OWF recognizes the tremendous importance that this legislation 
will have for hunters, anglers and outdoor enthusiasts in the United 
States and particularly in Oklahoma and for the future of wildlife.
    As Chairman Inhofe has stated, since 1987, the Partners Program has 
been a successful voluntary partnership program that helps private 
landowners restore fish and wildlife habitat on their own lands. 
Through 33,103 agreements with private landowners, the Partners Program 
has accomplished the restoration of 677,000 acres of wetlands, 
1,253,700 acres of prairie and native grasslands, and 5,560 miles of 
riparian and in-stream habitat.
    We also know how popular the Partners Programs has been with 
sportsmen and women. In a nationwide poll conducted by the National 
Wildlife Federation by the Republican firm Bellwether Research last 
June, 87% of America's hunters and anglers said they favored efforts to 
expand the Partners for Fish and Wildlife program.
    OWF also understands that the future of wildlife conservation in 
states like Oklahoma, where there is very little public land, lies in 
our ability to successfully partner with private landowners. We know 
from experience that a majority of private landowners, ranchers and 
farmers, have a strong conservation ethic and they consider themselves 
good stewards of the land. Therefore, providing financial assistance to 
private landowners to restore, enhance, and manage private land to 
improve fish and wildlife habitats through this legislation is 
something that the Wildlife Federation in Oklahoma strongly endorses.
    Again, we highly commend the proposed legislation. This highly 
successful program does deserve its own, clear congressional 
authorization to ensure that it will not be subject to the changing 
whims of the political climate.
    The OWF is Oklahomans oldest conservation organization. For 55 
years we have been the voice of sportsmen and outdoor enthusiasts in 
Oklahoma. OWF is also the state affiliate of the National Wildlife 
Federation, which is the largest conservation organization in the 
United States, with over 4 million members and supporters. The mission 
of the National Wildlife Federation is to inspire Americans to protect 
wildlife for our childrens future.
    Thank you for your consideration of this testimony.
  

                                  <all>

</pre></body></html>
